No:
IN THE
SUPREME COURT OF THE UNITED STATES

CARLOS MIGUEL PEREZ,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Carlos Miguel Perez, through undersigned counsel and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 29th day of October, 2020, which is timely
pursuant to the rules of this Court.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida
October 29, 2020

By:___Margaret Foldes________________
Margaret Foldes
Assistant Federal Public Defender
1 East Broward Blvd. Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436

